                                     News From
                           The Office of Inspector General
                       Corporation For National And Community Service




Ex-official, VISTA Member Debarred

A former program official and a VISTA member have both been debarred by the
Corporation for three years following an investigation by the Office of Inspector General.

Acting on information received in 2009 from the Corporation’s Florida State Office, the
OIG found that Andre Bailey, an official of the nonprofit Destiny Foundation, Orlando, FL,
conspired with Steven Milling, a VISTA member assigned to Destiny, to pay Milling a
living allowance to which Milling was not entitled. The loss to the government was
estimated at $8,000.

The OIG found that Milling was also a paid employee of Destiny and had been
contracted by Bailey to write grant applications for the nonprofit. VISTA members are
barred from outside employment during their term of service.

The case was initially referred to the U.S. Attorney’s Office, Middle District of Florida. It
declined prosecution, citing the low dollar amount of the loss. The OIG then made a
request for debarment to the Corporation.

Corporation officials debarred the pair for three years, effective January 25, 2011.
During the debarment period, Bailey and Milling are banned from any participation in
Federal grants and contracts and their names have been placed on the Excluded Parties
List maintained by the General Services Administration.
